   February 10, 2006




Financial Management


Audit of the FY 2004 Marine Corps
Entitlements and Withholding
(D-2006-049)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BAH                   Basic Allowance for Housing
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
MARADMINS             Marine Administrative Instructions
MCTFS                 Marine Corps Total Force System
MMIA                  Manpower Management Integration and Administration
OIG                   Office of Inspector General
ODIG-AUD              Office of Deputy Inspector General for Auditing
USMC                  United States Marine Corps
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                         February 10,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE-KANSAS CITY
               NAVAL INSPECTOR GENERAL
               DEPUTY COMMANDANT OF THE MARINE CORPS FOR
                 MANPOWER AND RESERVE AFFAIRS
SUBJECT: Report on FY 2004 Marine Corps Entitlements and Withholding Data
         (Report No. D-2006-049)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all issues be resolved promptly. We request
additional comments from the Marine Corps on Recommendations A.l., AS., and A.6.
and Recommendations B. 1.?B.2., B.3 ., and B.4., including corrective actions and dates of
completion. Recommendation A.5. and A.6. are redirected to the Marine Corps and were
previously Recommendation A.2.a. and A.2.b. directed to Defense Finance and
Accounting Service. We request management provide comments by April 10,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Aud-dfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas P. Neville at (703) 428-1061 (DSN 328-1061) or Mr. Joseph A. Powell at
(703) 428-1052 (DSN 328-1052). The team members are listed inside the back cover.
See Appendix D for the report distribution.
                                By direction of the Deputy Inspector General for Auditing:



                                           #&w
                                         Paul J. anetto. CPA
                                       ~ssistanfhs~ecto;  General
                                       Defense Financial Auditing
                                                Service
             Office of the Inspector General of the Department of Defense
Report No. D-2006-049                                                               February 10, 2006
      (Project No. D2004-D000FP-0210.000)

                Audit of the FY 2004 Marine Corps Entitlements and
                                   Withholding

                                        Executive Summary

Who Should Read This Report and Why? The Deputy Commandant of the Marine
Corps for Manpower and Reserve Affairs should read this report because it discusses and
recommends improvements to the administration of basic allowance for housing,
Servicemembers’ Group Life Insurance, the Montgomery GI Bill, and the Veterans
Educational Assistance Program. The Director of Defense Finance and Accounting
Service in Kansas City should read this report because it discusses transactions processed
through the Marine Corps Total Force System.

Background. The Defense Finance and Accounting Service at Kansas City, Missouri,
manages the Marine Corps financial accounts for both active and reserve Marines. The
Marine Corps processes pay through the Marine Corps Total Force System database,
which is controlled and maintained from the Defense Finance and Accounting Service in
Kansas City. Marine Personnel Administrative Centers at bases and in the field make
personnel entries to update data. Total dollar disbursements charged against the Marine
Corps FY 2004 military pay appropriations were $9.886 billion. Of this total,
approximately $960 million in basic allowance for housing is allocated for about
73,000 Marines.

Results. USMC administrative personnel did not consistently process requests for BAH
rate protection as required by the Department of Defense Financial Management
Regulation (FMR). ∗ As a result, the Marine Corps is potentially overpaying Marines by
more than $800,000 annually (finding A).

The Marines did not accurately input data and retain documents so that the Marine Corps
Total Force System (MCTFS) database reflected documented records of the Marines’
requests for Life Insurance and education benefits. As a result, the Marines’ life
insurance benefits may not be carried out according to their intentions concerning
beneficiary, amount, and payroll withholding. Moreover, some Marines may not receive
the education benefits they requested and other Marines had amounts they did not
authorize withheld for education benefits (finding B). See the Findings section of the
report for the detailed recommendations.

Management Comments and Audit Response. The comments from the Commandant
of the Marine Corps were responsive concerning administrative center procedures. He
nonconcurred to establishing procedures including a checklist that addresses waiver
requirements because it would be unwieldy. Based on the Marine Corps response to the

∗
    Basic Allowance for Housing rate protection requires a waiver that allows a Service member to continue
    to receive the same amount of housing allowance despite a change of duty station.
draft report, we have removed our recommendation for a checklist. His comments
concerning Marine Corps review were responsive. He concurred that Manpower
Management Integration and Administration would review errors discussed in this report.
He concurred that the Marine Corps Administrative Analysis Team would review the
personnel files that were not available for audit, and include in its inspections Basic
Allowance for Housing rates.

The Commandant’s comments were generally nonresponsive concerning procedures to
ensure the accuracy of Marine payroll record books. He nonconcurred with directing
personnel staff to specifically point out to Marines how each requested payroll change
has been recorded and how the changes will impact their benefits. We identified
numerous life insurance and educational benefits errors that could have been prevented
by such a discussion with the Service member. He concurred in principle to directing
administrative chiefs to validate the forms supporting transactions which post into the
database; however, he did not address changes to current practices that would prevent
errors in payroll withholding of the same type occurring in the future. He concurred in
principle to directing administrative chiefs and certifiers to approve the entries and
certify they were accurately recorded in the database before specialists file the forms in
personnel files; however, he did not address changes to current practices that would
prevent the forms from being filed until they were successfully entered into the database.
He nonconcurred with requiring personnel specialists to execute annual audits of the
personnel record books because he considers current personnel record audits sufficient.
We disagree since we found deficiencies in the personnel records.

The Director of the Defense Finance and Accounting Service Kansas City comments
were responsive concerning adjustments to housing payments. The Director
nonconcurred with adjusting Basic Allowance for Housing payments to Marines and
referred us to Marine Corps officials at Manpower Information Operations. We have
redirected this recommendation to the Marine Corps.

We request that the Deputy Commandant of the Marine Corps for Manpower and
Reserve Affairs reconsider his unresponsive comments and provide additional comments
on this report by April 10, 2006. A discussion of management comments is in the
Finding section of the report, and the text of the comments is in the Management
Comments section. In addition, Appendix C discusses management comments
concerning the report.




                                            ii
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               1

Internal Control Program Review                                          2

Findings
     A. Housing Allowance                                                 3
     B. Comparison of Marine Corps Withholding Data                      12

Appendixes
     A.    Scope and Methodology                                         20
     B.    Prior Coverage                                                22
     C.    Audit Response to Management Comments Concerning the Report   23
     D.    Report Distribution                                           25

Management Comments
     United States Marine Corps                                          27
     Defense Finance and Accounting Service                              33
Background
    The United States Marine Corps (USMC) pays active and reserve Marines
    through the Marine Corps Total Force System (MCTFS) database. Although the
    Defense Finance and Accounting Service (DFAS) at Kansas City, Missouri,
    controls and maintains the database, staff at the Marine Personnel Administrative
    Centers located at bases and in the field enter personnel data into systems feeding
    the MCTFS database. The data the staff enters determines gross pay (including
    promotions, rank, duty station posting, and special entitlements) and withholdings
    (usually elected by the Marine) for every Marine and reservist. Total
    disbursements charged against the USMC FY 2004 military pay appropriations
    were $9.886 billion. Of the total, approximately $960 million in basic allowance
    for housing is allocated for about 73,000 Marines.

    Marine Corps Total Force System. The USMC has integrated personnel and
    pay functions into a single database known as MCTFS. The MCTFS database
    supports pay and entitlements for both Active and Reserve Components of the
    Marine Corps and manages all personnel data management for retired Marines.
    The database is jointly sponsored and owned by the Marine Corps and DFAS, and
    maintains more than 500,000 records.

    Personnel Administrative Centers. Marines can make changes to their
    personnel records by visiting their local Personnel Administration Center or
    through the Internet. These changes can affect payroll withholding data. USMC
    has many Personnel Administrative Centers with each being responsible for
    specific Marine units. The Personnel Administrative Centers maintain the
    enlisted Marines’ Service Record Books and the Marine Officers’ Officer
    Qualification Records. Service Record Books and Officer Qualification Records
    contain assignment, promotion, military life insurance, and other documentation
    required of each Marine. Personnel changes made for a Marine at the Personnel
    Administrative Centers should be documented in the Marine’s Service Record
    Book or Officer Qualification Record after the changes are entered into a “unit
    diary” transaction, which will be captured by the MCTFS database. Personnel
    Administrative Centers are allowed to establish local standard operating
    procedures to implement Marine Corps procedures.

    Oversight and Review Responsibility. The Personnel Administrative Centers
    were manned by Marine enlisted personnel supervised by warrant officers and
    noncommissioned officers. As leaders and managers, the warrant and
    noncommissioned officers were responsible for the training of their enlisted
    personnel as well as review and oversight of all personnel actions and procedures
    necessary to ensure compliance with the Marine Corps personnel administrative
    procedures.


Objectives
    The overall audit objective was to determine whether the USMC accurately
    reported the cost of military personnel in the financial statements and properly


                                         1
           withheld amounts for Service members. However, Public Law 108-375, October
           28, 2004, was enacted after our audit was announced. Section 352 of the law
           disallows financial audits as part of the Mid Range Financial Improvement Plan.
           We interpreted this law as precluding work on unaudited DoD financial
           statements. Therefore, we limited our focus to reviewing accuracy of USMC
           payments to Service members, including the Basic Allowance for Housing (BAH)
           entitlement and withholdings for Servicemembers’ Group Life Insurance (Life
           Insurance), Montgomery GI Bill, and Veterans Education Assistance Program
           (education benefits).




Internal Control Program Review
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD managers to implement a comprehensive system of
           internal controls that provides reasonable assurance that programs are operating
           as intended and to evaluate the adequacy of the controls.

           Scope of Review of Internal Control Program. We reviewed Personnel
           Administrative Center internal controls over accuracy of data entered into the
           MCTFS database that determines Marines’ BAH entitlement and payroll
           withholding. We also compared the data in the MCTFS database with payroll
           withholding data in the Marines’ Service Record Books or Officer Qualification
           Records. We reviewed the USMC annual statement of assurance and determined
           it did not disclose payroll entitlement and withholding problems. We did not
           assess the adequacy of management’s self-evaluation.

           Adequacy of Internal Controls. We identified no material management control
           weaknesses; however, we did identify an internal control weakness, 1 which,
           although not material, is worth noting as it affects Marines’ pay. Personnel
           Administrative Center staff did not implement internal controls to ensure BAH,
           life insurance, and education benefits were accurately administered. The requests
           were not properly processed because the Deputy Commandant for Manpower and
           Reserve Affairs had not established effective and efficient procedures, including
           oversight and review, for administrative personnel to effectively implement the
           Financial Management Regulation regarding Basic Allowance for Housing.
           During the audit, we also identified issues concerning the timeliness of
           transmitting entitlement and payroll withholding data to the MCTFS database, the
           retention of Marines’ payroll entitlement and withholding data in the Service
           Record Books and Officer Qualification Records, and the accuracy of withholding
           amounts from military pay.




1
    As defined by DoD Instruction 5010.40.



                                               2
            A. Housing Allowance
           USMC administrative personnel did not consistently process requests for
           BAH rate protection as required by the Department of Defense Financial
           Management Regulation (FMR). The requests were not properly
           processed because the Deputy Commandant for Manpower and Reserve
           Affairs had not established effective and efficient procedures for
           administrative personnel, including oversight and review, to implement
           the FMR regarding Basic Allowance for Housing. Also, Manpower
           Management Integration and Administration (MMIA) did not have access
           to Marines’ prior addresses and dates of residence—information MMIA
           staff needs to implement FMR requirements. As a result, the USMC may
           be overpaying Marines by more than $800,000 annually.


Basic Allowance for Housing
    The USMC implements section 403, title 37, United States Code, “Basic
    Allowance for Housing,” (37 U.S.C. 403) to provide Basic Allowance for
    Housing (BAH) to Service members to defray the cost of quarters not provided by
    the Government. As such, 37 U.S.C. 403 defines the legal limitations, including
    adjustments, based on the FY 2001 National Defense Authorization Act (Public
    Law 106-398, October 30, 2000). The FMR implements the United States Code
    and provides policy regarding financial management and military pay. The
    USMC Deputy Commandant for Manpower and Reserve Affairs issues Marine
    Administrative Instructions (MARADMINS) to provide administrative policy for
    implementing the FMR. The Marine Corps Administrative Analysis Teams
    perform reviews and prepare reports on the efficiency of administrative units.
    Finally, the DFAS Systems Liaison and Procedures Division in Kansas City
    publishes “Pay Allowance and Advisory Notices” to further clarify policy.

    United States Code. As stated in 37 U.S.C. 403, the amount of BAH for a
    member is determined by the member’s pay grade, geographic location, and the
    dependency status of the member. The Secretary of Defense determines the
    housing allowance based on the adequate housing rental in military housing areas
    in the United States.

    FY 2001 National Defense Authorization Act. The Committee on Armed
    Services, United States Senate Report 106-292, “National Defense Authorization
    Act for Fiscal Year 2001,” May 12, 2000, describes cases in which the BAH for
    Service members had been reduced although they remained in the same quarters
    after a change of Permanent Duty Station. The initial BAH legislation was not
    intended to impose adverse effects on Service members because of a no-cost
    Permanent Change of Station move when Service members stay in the original
    quarters. Therefore, Public Law 106-398 gives the Secretary of Defense the
    authority to determine BAH rates according to the rate at the previous permanent
    duty station under certain circumstances. For example, when the Service member
    changes assignment using a low or no-cost move within the United States or when
    dependents reside separately because of the member’s Permanent Change of
    Station.


                                        3
Financial Management Regulation. FMR, volume 7A, chapter 26, implements
the FY 2001 National Defense Authorization Act. Specifically, the FMR states
that the Secretaries of the Army, Navy, and Air Force may determine whether it is
inequitable to pay a Service member BAH based on the new permanent duty
station rate. However, the FMR requires that Service member to request a waiver
(approval letter) from the Service Secretary, or a designated representative, if they
wish to draw BAH based on a location other than their permanent duty station.
The Office of the Service Secretary or their representative must issue a decision
to allow the Service member to retain a higher BAH.

MARADMINS. The Deputy Commandant for Manpower and Reserve Affairs
issued three MARADMINS specifically addressing BAH issues. MARADMIN
286/01, “Basic Allowance for Housing,” June 18, 2001, implements the new
BAH provisions established in Public Law 106-398. MARADMIN 315/01,
“Basic Allowance for Housing,” July 2, 2001, clarifies some of the provisions of
MARADMIN 286/01 and implements the waiver requirement established in the
FMR. Specifically, Marines must obtain their waivers through the MMIA. All
waivers are processed through local Personnel Administrative Centers. Finally,
MARADMIN 239/05, “Basic Allowance for Housing at locations other than the
member’s permanent duty station,” May 24, 2005, clarifies such issues as:

           •   returning to a previous permanent duty station,

           •   unfunded relocation orders from a higher to a lower BAH area, and

           •   querying members when their BAH zip code is different from their
               Permanent Duty Station zip code.

Marine Corps Administrative Analysis Teams. The Marine Corps
Administrative Analysis Teams perform reviews and prepare reports on the
efficiency of administrative units. The Marine Corps has two teams performing
reviews; one is the East Coast Team and the other is the West Coast Team. The
teams provide commanders and their staffs with training, education, and
evaluation concerning Marine Corps policies and procedures affecting
administration of personnel, pay, and allowances.

Pay Allowance Advisory Notices. DFAS Systems Liaison and Procedures
Division in Kansas City provides entitlement determinations, regulatory
interpretations, and procedure clarifications for disbursing military pay and
allowances and station allowances for the Marine Corps. Pay Allowance
Advisory Notice 29-02, “BAH-Policy Change for BAH at Previous Duty
Station,” March 2002, addresses low cost or no-cost moves between permanent
duty stations. Although this policy does not authorize the reimbursement of
movement expenses, the Marine is allowed to retain the higher BAH rate. In this
situation, the Marine is allowed to retain the higher BAH rate because it is not
equitable to reduce the rate when the Marine has not made any change in housing.




                                      4
Implementation of Public Law
           The Deputy Commandant for Manpower and Reserve Affairs had not established
           effective and efficient procedures for administrative personnel to effectively
           implement the FMR regarding BAH for all Marines. Specifically, the Deputy
           Commandant did not include oversight and review in procedures for
           administrative personnel to implement procedural requirements established in the
           FMR and MARADMINS, and the MMIA did not have the access to Marines’
           prior addresses and dates of residence. MMIA personnel needed that information
           to adhere to the requirements in the FMR. As a result, USMC may have made
           BAH overpayments of more than $800,000.

           Enforcement of Requirements. Local Personnel Administrative Centers were
           not enforcing the waiver requirement established in the FMR. We compared BAH
           entitlement records in 888 Marine Service Record Books and Officer
           Qualification Records from Quantico, Virginia; Camp Pendleton, California; and
           Camp LeJeune, North Carolina, to Marines’ leave and earning statements. The
           records selected consisted of Marines whose BAH zip code was different than
           their permanent duty station zip code. During the audit we found the following
           potential overpayments.

                        •   86 records reviewed were missing the BAH waiver

                        •   41 records were not made available for our review

           USMC had made the following actual overpayments.

                        •   79 records showed higher BAH for Marines reassigned to their
                            previous Permanent Duty Station

                        •   41 records showed the Marines moved their residence to a duty
                            station with lower allowance for housing and were incorrectly paid
                            higher BAH
                        •   9 records showed the Marines were reassigned to an alert site
                            instead of a new Permanent Duty Station and higher BAH was
                            incorrectly authorized

           These errors resulted in $428,499 in potential overpayments annually and
           $380,508 in actual overpayments annually. 2
           Potential Overpayments. MMIA has the authority to issue higher BAH waivers.
           For the 888 records reviewed, Marine Personnel Administrative Centers
           processed 86 transactions to increase BAH without receiving a waiver from
           MMIA. In addition, 33 of 41 records which were requested but not provided
           could be potential overpayments.

2
    These results cannot be statistically projected. Table 1 shows potential overpayments annually of
     $291,999 and $136,500; totaling $428,499. Table 2 shows actual overpayments annually of $210,588;
     $138,300; and $31,620; totaling $380,508.



                                                     5
        Missing Waivers. The USMC may have overpaid 86 Marines by
$291,999 because the Personnel Administrative Centers did not obtain the
required waivers. MARADMIN 286/01 provides policy concerning the duty
station BAH rate when a Marine receives permanent change of station orders.
MARADMIN 315/01 requires Marines to request a waiver through the MMIA if
they wish to draw BAH for an amount higher than the amount allowable at their
permanent duty station. The Personnel Administrative Centers processed
transactions authorizing higher BAH for Marines who had not obtained the
required waiver from the MMIA. We considered these potential overpayments
because there is no waiver on file to ensure the request is valid.

        Records Unavailable. At Camp Pendleton, 41 of the Service Record
Books or Officer Qualification Records we requested were not provided to us by
the Personnel Administrative Centers. The Service Record Books and Officer
Qualification Records at Camp Pendleton were retained among the various
reporting units throughout the Marine base. Moreover, the Personnel
Administrative Centers did not provide an explanation for the absence of the
Service Record Books or Officer Qualification Records. We reviewed data
available from DFAS Kansas City regarding those 41 Marines. Of the 41
Marines, 33 received BAH at rates in excess of Camp Pendleton’s BAH rate (five
had received waivers from MMIA, two others lived in the barracks, and one
received a lower housing allowance). The 33 Marines received BAH which
equaled $11,375 in excess of the Camp Pendleton BAH rate per month or
$136,500 annually.

The total potential overpayments are $428,499 for Service Record Books and
Officer Qualification Records that were either missing BAH waivers or were
unavailable for review. Table 1 shows potential annual overpayments by
location.



                       Table 1. Potential Annual Overpayments*
                                              Missing Waivers        Records Unavailable


 Marine Corps    Records Personnel                    Potential    Personnel    Potential
     Base       Reviewed Records                     Overpayment    Records    Overpayment
Quantico          314       11                        $ 40,071
Camp LeJeune      281       19                           25,956
Camp Pendleton     293      56                         225,972        33        $136,500
         Totals   888       86                        $291,999        33        $136,500



* These results cannot be statistically projected.




                                              6
        Actual Overpayments. As shown in Table 2, the Personnel Administrative
        Centers processed applications for higher BAH that resulted in $380,508 in actual
        overpayments annually.

                      Table 2. Annual Overpayments for Basic Allowance for Housing.*

Marine Corps          Marines                   Marines Moved in   Marines Assigned   Annualized
Base                  Reassigned to             Conjunction with   to Alert Site      Total
                      Previous                  Orders                                Amount
                      Permanent Duty
                      Station


                      Number Amount Number Amount Number Amount Overpaid
Camp Pendleton          64   $176,184 28   $108,636              $284,820
Camp LeJeune             4      3,588  5      1,440                 5,028
Quantico                11     30,816  8   $ 28,224 9    $31,620   90,660
         Totals         79   $210,588 41   $138,300 9    $31,620 $380,508

*These total dollar amounts do not duplicate those in Table 1.



                Marines Reassigned to Their Previous Permanent Duty Station. The
        BAH rate paid to Marines reassigned from a low BAH area to a high BAH area
        and back again is a complicated issue. As stated in 37 U.S.C. 403, Marines
        originally assigned to a low BAH area may receive a higher BAH when they are
        assigned to a high BAH area even if they have not moved from their low BAH
        residence. Marines are not allowed to retain the higher BAH when they are
        reassigned back to the original low BAH duty station. However, MMIA
        approved requests to retain higher BAH from a previous permanent duty station
        for 79 Marines even though they were reassigned to their previous low BAH
        station and continuously lived in the low BAH area. In May 2005, the
        Deputy Commandant for Manpower and Reserve Affairs published MARADMIN
        239/05 to clarify 37 U.S.C. 403. MARADMIN 239/05 was issued after most of
        our field work was completed. This MARADMIN clarifies that when a member
        has been initially assigned to a low BAH area, is reassigned to a nearby high
        BAH area, and then is reassigned again to the low BAH area, BAH rate protection
        does not apply. The 79 Marines who were approved for the higher BAH rate
        received a total annual overpayment of $210,588.
               Marines Moved in Conjunction with Orders. According to Pay
        Allowance Advisory Notice 29-02, the Marines can retain the old Permanent
        Duty Station rate because it is not equitable to reduce the member’s housing
        allowance when the member has not made any change in housing. However,
        MMIA approved 41 Marines for higher BAH based on the request from the
        Marine and from their commander. These 41 Marines moved to a lower BAH
        rate housing area, and therefore were not eligible to continue to receive the higher
        BAH rate. The MCTFS database does not display current and past addresses and


                                                     7
   dates Marines lived at each address. If MMIA had access to this information, it
   could make a more informed decision on BAH approvals. The 41 Marines
   approved for the higher BAH rate received a total annual overpayment of
   $138,300.

           Marines Assigned to Alert Sites. Nine Marines received higher BAH
   without moving and without changing their Permanent Duty Station. The
   Marines received higher BAH because they were posted to an alert site (a place
   where Marines are vigilantly attentive and responsive) in Washington, D.C. Such
   postings do not qualify a Marine for higher BAH. The Marine Personnel
   Administrative Centers processed these nine transactions to increase BAH for the
   Marines posted to an alert site. The Permanent Duty Station for these Marines
   did not change; therefore, they did not meet the criteria under the FMR for the
   higher BAH. The Marine Personnel Administrative Centers did not require
   approval documentation from the MMIA. The resulting overpayment was
   $31,620 annually.


Summary
   Since Congress passed the FY 2001 National Defense Authorization Act, the
   Department of Defense has attempted to address inequities associated with BAH
   benefits provided to military personnel. Personnel Administrative Centers staff
   have found it difficult to determine eligibility for higher BAH rates. Additional
   guidance to the Personnel Administrative Centers, including establishing effective
   and efficient procedures with oversight and review to implement FMR
   requirements, will help to ensure accurate execution of the intent of the legislation
   and reduce chances of errors and unnecessary cost.




                                         8
Recommendations, Management Comments, and Audit
  Response
    Redirected, Revised, and Renumbered Recommendations. We revised draft
    recommendation A.1.a. (now A.1.) based on Marine Corps comments that a
    checklist would be impractical. We revised draft recommendation A.2.a.
    (now A.5.) from “information provided by the Deputy Commandant for
    Manpower and Reserve Affairs” to “information provided by review of errors
    disclosed in this audit report,” based on DFAS comments that data input for
    Marines’ BAH adjustments and other pay and personnel entries is the Marine
    Corps’ responsibility. The Marine Corps provided unsolicited comments on draft
    recommendation A.2.b., stating that MCTFS did not contain previous addresses
    of Marines. We revised draft recommendation A.2.b. (now A.6.) from “view
    addresses” to “review current and previous” addresses.
    The Director DFAS-Kansas City deferred all comments and responses to draft
    recommendation A.2.a (now recommendation A.5.) to the USMC for a formal
    response. Marine Corps policy states data input for its Service members’ BAH
    adjustments and other pay and personnel entries is the Marine Corps’
    responsibility. As a result of management comments, we redirected draft
    recommendations A.2.a and A.2.b. (now A.5. and A.6.) to the Deputy
    Commandant for Manpower and Reserve Affairs. We renumbered draft
    recommendations A.1.a, A.1.b., A.1.c., A.1.d., A.2.a., and A.2.b.; to A.1., A.2,
    A.3., A.4., A.5., and A.6., respectively.

    A. We recommend that the Deputy Commandant for Manpower and
    Reserve Affairs establish effective and efficient procedures to effectively
    implement the intent of Public Law 106-398 and the Financial Management
    Regulation regarding Basic Allowance for Housing rate protection.
    Specifically:

          1. Establish procedures that address waiver requirements for
    Personnel Administrative Center staff to follow for every Basic Allowance
    for Housing rate protection request, including oversight and review.
           2. Direct Manpower Management Integration and Administration to
    review the errors discussed in this report and verify the eligibility of Marines
    to receive the higher Basic Allowance for Housing, discontinuing the higher
    Basic Allowance for Housing where appropriate.

    Marine Corps Comments. The Commandant of the Marine Corps concurred.
    MARADMIN 239/05 directs all commands to determine if any of their Marines
    are receiving BAH at other than their PDS rates and, if so, to submit those
    Marines’ records for a review and re-adjudication. In addition, MMIA is
    reviewing the BAH rate errors identified in this DoD IG Report. As of November
    2005 the Marine Corps was in the process of completing the implementation of
    these recommendations. The Marine Corps projected a revised completion date
    of February 28, 2006.




                                         9
Audit Response. The Marine Corps comments are fully responsive. We
commend the Marine Corps for conducting a 100% review of all Marines
receiving a higher BAH rate in order to determine if the higher rates are justified.

       3. Direct Marine Corps Administrative Analysis Team-West to locate
and review the 41 Service Record Books and Officer Qualification Records
that were not available for audit, to determine if the Marines were eligible
and approved to receive the Basic Allowance for Housing paid in excess of
their current Permanent Duty Station rate, and report the results to the
Personnel Administrative Centers and Manpower Management Integration
and Administration.

Marine Corps Comments. The Commandant of the Marine Corps concurred.
The Director of Manpower Information will forward the list of records to Marine
Corps Administrative Analysis Team-West for review. Marine Corps
Administrative Analysis Team-West will report its findings to the servicing
Personnel Administrative Center, Director of Manpower Information, and
Manpower Management Integration and Administration. The Marine Corps has
estimated February 28, 2006 as the completion date for this review.

       4. Direct Marine Corps Administration Analysis Team in its
inspections to review all Basic Allowance for Housing rates in excess of the
Permanent Duty Station rate.

Marine Corps Comments. The Deputy Commandant for Manpower and
Reserve Affairs concurred. The Marine Corps Administrative Analysis Team
checklist will be modified to verify correct BAH rates. The Marine Corps has
estimated February 28, 2006 as the date for completion.

       5. Adjust Basic Allowance for Housing payments to Marines in
accordance with information provided by review of errors disclosed in this
audit report.

Marine Corps Comments. The Marine Corps did not comment on this
recommendation.

       6. Identify methods to allow Manpower Management Integration and
Administration to review Marines current and prior addresses including
periods of residence.

Defense Finance and Accounting Service Comments: Management concurred.
Management stated that the Manpower Management Integration and
Administration has read-only access to the Marine Corps Total Force System.

Marine Corps Comments: The Commandant of the Marine Corps provided
unsolicited comments and stated Manpower Management Integration and
Administration has access to Marine Corps Total Force System data. The access
enables Manpower Management Integration and Administration to determine
Marines’ current addresses, but does not provide the ability to determine Marines’
previous addresses.



                                     10
Audit Response: This recommendation was originally addressed to the Director
of the Defense Finance and Accounting Service-Kansas City. Because Marine
Corps Total Force System does not include previous addresses, we have revised
the recommendation.

Management Comments Requested. We request the Marine Corps provide
comments on Recommendations A.1., A.5., and A.6.




                                  11
           B. Comparison of Marine Corps
              Withholding Data
           The Marines did not accurately input data and retain documents so that the
           Marine Corps Total Force System (MCTFS) database reflected
           documented records of the Marines’ requests for Service Members Group
           Life Insurance (Life Insurance) and education benefits. Marine records
           and the MCTFS database did not match because the Deputy Commandant
           for Manpower and Reserve Affairs had not established effective
           procedures, including oversight and review, to ensure the accurate posting
           of Marines’ requests to the record books and to the MCTFS database. In
           addition, the Deputy Commandant for Manpower and Reserve Affairs had
           not implemented effective procedures for verifying the accuracy of payroll
           records, including Service Record Books and Officer Qualification
           Records. As a result, the Marines’ Life Insurance benefits may not be
           carried out according to their intentions concerning beneficiary, amount,
           and payroll withholding. Moreover, some Marines may not receive the
           education benefits they requested and other Marines had amounts
           withheld for education benefits they did not authorize.


Service Member Benefits
    Public laws were enacted to authorize, enhance, and change life insurance
    benefits and educational assistance for Service members. The FMR implements
    the United States Code and provides financial management policy and
    procedures. In addition, the USMC issued the Marine Corps Total Force System
    Personnel Reporting Instruction Manual (the Manual) to provide administrative
    policy for implementing the FMR.

    Life Insurance in Public Law. Public Law 89-214, effective September 29,
    1965, authorizes Servicemembers’ Group Life Insurance coverage. Life
    Insurance coverage for Service members was available up to a maximum of
    $250,000 for a cost of $16.25 per month. Subsequent to our field work the
    maximum Life Insurance was increased to $400,000. Public Law 107-14,
    effective November 1, 2001, allows for Life Insurance coverage for the Service
    member’s spouse up to $100,000.

    Educational Assistance in the United States Code. The Montgomery GI Bill
    and the Veterans Educational Assistance Program authorize education financial
    assistance. The language in 38 U.S.C. 3011 authorizes the withholding of money
    from Service members’ pay for the Montgomery GI Bill. The Post-Vietnam
    Veterans’ Assistance Program (38 U.S.C. 3222) and the Educational Assistance
    Pilot Program (Section 903 of Public Law 96-342) authorized the Veterans
    Educational Assistance Program.

    Financial Management Regulation. FMR volume 7A, chapter 47, provides
    policy for implementing the Life Insurance program. The FMR states that the
    Life Insurance program automatically insures eligible members (those who


                                       12
receive basic pay for one or more days per month) against death in the amount of
$250,000, unless they waive coverage. In addition to waiving coverage, members
may elect coverage for an amount less than $250,000, in $10,000 increments.
When a member is eligible for full time coverage, the monthly deduction is $.65
for each $10,000 of coverage.

Marine Corps Total Force System Personnel Reporting Instruction Manual
(The Manual). In The Manual, the USMC established procedures and internal
controls for ensuring accurate withholding of voluntary contributions in the
MCTFS database. The withholding of voluntary contributions from Marines’ pay
for education benefits and Life Insurance as recorded in the MCTFS database
should be the same as those authorized by Marines in their Service Record Books
and Officer Qualification Records. The Manual requires audits of the data entry.

        Data Entry Process. The Manual defines the electronic methods of data
entry into the MCTFS database as unit diaries. A unit diary clerk (data entry
clerk) prepares and reviews the diary (data) to produce the rough diary (draft
data). Then the Administrative Chief reviews the diary and either accepts it and
forwards it to the Certifying Officer, or rejects the rough diary and returns it to the
unit diary clerk for correction. The Manual states that unit diaries will be
certified by use of an electronic signature by commissioned or warrant officers, or
by a civilian in grades GS-7 or above.

         Audit Requirements. In addition to the procedures outlined above,
Chapter 12 of The Manual requires that the Personnel Administrative Centers
perform triennial audits (once every three years) to ensure accuracy,
completeness, currency, and consistency of the MCTFS database in conjunction
with signed documents in the Marines’ Service Record Books and Officer
Qualification Records. In order to reduce the frequency a Marine is required to
visit the Personnel Administrative Center, Marines or Administrative personnel
are able to declare any visit for routine service as their triennial audit.

Annual Audits versus Triennial Audits. Personnel Administrative Centers that
annually audited Marines’ Service Record Books and Officer Qualification
Records had a lower error rate than Personnel Administrative Centers that audited
triennially. At Quantico and Camp LeJeune, the Personnel Administrative
Centers perform annual audits of the Service Record Books and Officer
Qualification Records; Camp Pendleton Personnel Administrative Centers
perform triennial audits. As shown in Table 3, the Life Insurance error rates for
bases that performed audits annually were significantly lower than the rates for
the base that performed audits triennially. Although the differences in error rates
for education benefits were not as dramatic for the bases performing annual
audits, the error rates were still lower than those documented in the triennial
audit.




                                      13
                Table 3. Annual versus Triennial Error Rates for Life Insurance and
                                   Education Benefits by Base*

                                       SRBs and
                                        OQRs              Life Insurance        Education Benefits
   Marine Corps Base                   Reviewed        Errors     Error Rate   Errors    Error Rate
Quantico (Annual)                       314              9         2.9%         21         6.7%
Camp LeJeune (Annual)                   281              8         2.9%         29        10.3%
Camp Pendleton (Triennial)              293             24         8.2%         30        10.2%
                    Totals              888             41         4.6%         80         9.0%

* These results cannot be statistically projected.




Life Insurance
           A comparison of Service Record Books and Officer Qualification Records to
           Marines’ leave and earning statements at Quantico Marine Corps Base, Virginia;
           Camp LeJeune, North Carolina; and Camp Pendleton, California; showed the
           deductions in the MCTFS database did not always agree with life insurance
           withholdings and beneficiary information elected by the Marines. Out of 888
           records reviewed, we found 41 errors for life insurance. Although the total
           number of errors 3 was relatively small (4.6%), these errors could be devastating
           to the beneficiary of a Marine. In 16 instances the errors were for life insurance
           coverage or deductions, with total monthly premium underpayments of $429 and
           premium overpayments of $1,275, and a potential benefit loss of $550,000. In 19
           instances the errors were either caused by incorrect Life Insurance beneficiary
           information or by unsigned and missing Life Insurance source documents, with
           Life Insurance coverage totaling $4,062,500. The final six instances were errors
           in which the member elected either a payout option of 36 months or one lump
           sum on the life insurance forms, but the MCTFS database did not reflect these
           elections. Moreover, 28 of these errors could have been detected by the
           Personnel Administrative Centers or the Service member when completing
           election forms. For example, we found the following.

                        •   23 instances of members not verifying their insurance election
                            form to ensure consistency with their Record of Emergency Data
                            form

                        •   5 instances of members not signing their life insurance documents

           Personnel specialists need to specifically point out to Marines how each requested
           payroll change has been recorded and how the changes will impact their benefits.
           This action will not only reduce the number of errors, but will also increase the
           members’ understanding of their benefits.
3
    This judgment sample percentage does not project to the population.



                                                     14
Effects of Errors
     The errors could have significant consequences for the Marines and their
     beneficiaries. Life Insurance errors are the most serious and resulted in several
     different types of discrepancies. For example:

                •   One Marine was covered for $100,000 Life Insurance in the
                    MCTFS database after electing the maximum coverage of
                    $250,000 in the Service Record Book.

                •   A second Marine was covered for $200,000 Life Insurance in the
                    MCTFS database after electing coverage of $250,000 in the
                    Service Record Book.

                •   A third Marine was underpaid $16.25 each month (or $195
                    annually) after declining the Life Insurance coverage.

                •   A fourth Marine made a change in beneficiary in the Service
                    Record Book that was not recorded in the MCTFS database. Had
                    the Marine died, the wrong person would have received the
                    insurance money.


GI Bill and Veterans Educational Assistance Program
     Our review of Service Record Books and Officer Qualification Records showed
     the deductions in the MCTFS database did not agree with the education benefit
     withholdings elected by the Marines. Out of 888 records reviewed, we found 80
     education benefits withholding errors.

     Education Forms Inconsistent with the MCTFS Database. For the
     888 records reviewed, 23 education election forms in the Service Record Books
     and Officer Qualification Records were inconsistent with data in the MCTFS
     database. As a result of the Marines’ elections not being reflected in the database,
     16 had a lower amount withheld totaling $21,723. Of these 16 Marines,
     10 indicated they wanted to participate in the program, but the Personnel
     Administrative Centers had not made entries in unit diaries to initiate the
     withholdings. If personnel specialists were instructed to file election forms for
     educational benefits into Service Record Books or Officer Qualification Records
     after the administrative chief and certifier had marked them for approval and
     certified that the entry had taken place, this error could have been prevented. The
     other six errors could have been prevented by requiring and training
     administrative chiefs to validate support for education election transactions prior
     to providing the transactions to certifiers. For two of the six Marines, the
     Personnel Administrative Centers did not enter the Marines’ elections to increase
     education withholdings. Personnel Administrative Centers began education
     withholdings on the remaining four Marines more than one pay period after they
     made their election. For example, one Marine elected education benefits in
     March but withholding did not start until September, five months later.


                                          15
   As a result of the Marines’ elections not being accurately reflected in the
   database, seven Marines had too much pay withheld for a total of $11,400. Also,
   the Personnel Administrative Centers posted information to unit diaries to initiate
   education withholdings for three Marines who declined to participate. Therefore,
   $5,100 was withheld in error. The Personnel Administrative Centers also posted
   information to unit diaries to initiate education withholdings for four Marines
   who were not eligible to participate in the programs. Therefore, $6,300 was
   withheld in error.

   Retaining Forms and Signature. For the 888 records reviewed, 57 of the
   education election forms were either unsigned or missing. The Service Record
   Books and Officer Qualification Records of 34 Marines did not contain an
   education benefits form; however, no amounts were withheld in the MCTFS
   database. The Service Record Books and Officer Qualification Records of
   another 19 Marines did not contain an education benefits form or the form was
   unsigned, but $22,200 for education benefits had been withheld in the database.
   The Service Record Books and Officer Qualification Records of the remaining
   four Marines did not have supplemental education benefit forms to increase
   educational coverage or the form was unsigned, but had an additional $2,360
   withheld. As a result, $24,560 was withheld without the Marines’ signed
   education benefit forms being documented in their Service Record Book or
   Officer Qualification Record.

   Audit and Signature. The 34 instances of the missing education forms, without
   deductions, could have been prevented by annual audits of the Service Record
   Books and Officer Qualification Records. The audits of the Service Record
   Books and Officer Qualification Records are normally performed by personnel in
   the Personnel Administrative Centers. The 23 instances of withholding for
   education benefits without supporting documents in the Service Record Books
   and Officer Qualification Records also could have been prevented by personnel
   specialists, administrative chiefs, and certifiers ensuring that all supporting
   documentation for transactions being posted into unit diaries is present.


Summary
   The Deputy Commandant for Manpower and Reserve Affairs had not established
   effective procedures, including oversight and review, to ensure the accurate
   posting of Marines’ requests to the record books and to the MCTFS database;
   consequently, Marine records and the MCTFS database did not match. The
   Deputy Commandant for Manpower and Reserve Affairs needed to require
   Marines and personnel specialists to review life insurance and education benefit
   election forms for consistency and accuracy. In addition, the Deputy
   Commandant needed to issue guidance to preclude personnel specialists from
   filing life insurance and education benefit election forms in the Service Record
   Books or Officer Qualification Records without the elections actually being
   posted into MCTFS. The Deputy Commandant also needed to issue guidance to
   require personnel specialists to take the time during the review process to point




                                       16
out all of the changes made and requested by the Marine. This action would not
only reduce the number of errors, but would also increase the member’s
understanding of their benefits.




                                   17
Recommendations, Management Comments, and Audit
  Response
    B. The Deputy Commandant for Manpower and Reserve Affairs should
    establish and implement procedures, including oversight and review, to
    ensure the accuracy of Marine payroll records including Service Record
    Books and Officer Qualification Records. At a minimum, the procedures
    should:

           1. Direct Personnel Administrative Center personnel to specifically
    point out to Marines how each requested payroll change has been recorded
    and how the change(s) will impact their benefits.
    Marine Corps Comments. The Deputy Commandant for Manpower and
    Reserve Affairs nonconcurred, stating that Marine Corps Orders (MCO)
    7220.44A, “Marine Corps Policy for Paying Marines Under the Joint Uniform
    Military Pay System Manpower Management System (JUMPS/MMS),”
    June 21, 1989, and MCO 5000.14D, “Marine Corps Administrative Procedures
    (MCAP),” June 4, 2004, state that individual Marines are responsible for the
    accuracy of their pay. In addition, DFAS-KC 7220.21-R, August 21,1998,
    “Marine Corps Total Force System Automated Pay System Manual,” identifies
    how Marines will be notified of changes in their pay.

    Audit Response. The Marine Corps comments are nonresponsive. We identified
    numerous deficiencies concerning military insurance and educational benefits.
    The current procedures and controls are not adequate to assure the accurate
    recording and withholding of benefits. The complexities and associated errors
    demonstrate the need for additional procedures to ensure Marines are receiving
    the benefits they are entitled to. The Marine Corps comments do not describe
    how such deficiencies will be prevented in the future.

           2. Direct administrative chiefs to validate the personnel forms
    supporting unit diary transactions which will post into the Marine Corps
    Total Force System database prior to providing the transactions to certifiers.
    Marine Corps Comments. The Deputy Commandant for Manpower and
    Reserve Affairs concurred in principle. The administrative chiefs of the
    Personnel Administrative Centers are required to review the source documents
    prior to either approving and forwarding them to the unit diary clerk or rejecting
    them for more documentation. Administrative chiefs’ responsibilities are
    documented in the flowcharts at Figure 1-3 of the Marine Corps Total Force
    System Personnel Reporting Instructions Users Manual.

    Audit Response. The Marine Corps comments are not responsive because they
    did not address changes to current practices or procedures that would prevent
    future errors. We would like the Marine Corps to concur in practice as well as in
    principle. We are familiar with the Marine Corps Total Force System Personnel
    Reporting Instructions Users Manual and the responsibility of the administrative
    chiefs to review the source documents. However, we identified deficiencies



                                        18
during our audit that were not detected and corrected by the administrative chiefs
as required by the Marine Corps Total Force System Personnel Reporting
Instructions Users Manual.

        3. Direct administrative chiefs and certifiers to approve the entries
and certify they have been accurately recorded before personnel specialists
file the election forms in Service Record Books and Officer Qualification
Records.

Marine Corps Comments. The Deputy Commandant for Manpower and
Reserve Affairs concurred in principle. In accordance with Marine Corps Total
Force System Personnel Reporting Instructions Users Manual, figure 1-3,
administrative chiefs and certifiers are required to approve or reject draft unit
diaries before personnel specialists file the election forms.

Audit Response. The Marine Corps comments are unresponsive because they
did not address changes to current practices or procedures that might prevent
future errors. The current system permits payroll benefit election documents to be
filed in personnel record books without the data necessarily being entered into
MCTFS.

       4. Require personnel specialists to execute annual audits of the
Service Record Books and Officer Qualification Records.

Marine Corps Comments. The Deputy Commandant for Manpower and
Reserve Affairs nonconcurred because there are currently sufficient opportunities
for Marines to have their Service Record Books or Officer Qualification Records
audited for completeness and correctness. MCO P1070.12K, dated July 14, 2000,
“The Marine Corps Individual Records Administration Manual,” identifies the
following three occasions when personnel records are to be audited: the Joint
Process Audit, the Triennial Audit, and the Deployment Readiness Audit. In
addition, commanders are permitted to direct an audit at any time, and individual
Marines are allowed to request an audit of their personnel records at any time.

Audit Response. The Marine Corps comments are unresponsive. We found
deficiencies in the personnel records. The rates of error at Quantico and
Camp LeJeune, which require annual audits, were much lower than Camp
Pendleton, which did not require annual audits. In addition, Quantico and Camp
LeJeune operate effectively despite the requirements for annual audits of the
Service Record Books and Officers Qualification Records.

Management Comments Requested. We request the Marine Corps provide
comments on Recommendations B.1., B.2., B.3., and B.4.




                                    19
Appendix A. Scope and Methodology
   We examined the basic allowance for housing entitlement, Life Insurance, and
   education benefits. Supporting documents in the Marines’ Service Record Books
   and Officer Qualification Records were audited against data in MCTFS.
   Supporting documents we examined included the MCTFS database record of
   emergency data, basic individual record, the 10922 dependency form, the life
   insurance election form, the spouse life insurance election form, the education
   benefit election forms, and the chronological record of assignments and
   permanent duty stations.

   We performed this audit from August 2004 through August 2005 in accordance
   with generally accepted government auditing standards. DFAS and the Marine
   Corps briefed our team on the MCTFS database, USMC payroll operations, and
   the preparation of USMC financial statements. We examined Service Record
   Books and Officer Qualification Records maintained by Personnel Administrative
   Centers at Quantico Marine Corps Base, Virginia; Camp LeJeune,
   North Carolina; and Camp Pendleton, California. In addition, MCAAT-East at
   Camp Johnson briefed us on their responsibilities and their procedures for
   auditing the Marines.

   We compared the BAH zip code against the Marines’ Permanent Duty Station zip
   code using data mining software. Errors we found as a result of random sampling
   are included with the subpopulation errors, but the individual errors are not
   included twice. We then examined the documentation in the Service Record
   Books and Officer Qualification Records for support of the higher BAH rate for
   those Marines included in the subpopulation. We also used the subpopulation of
   Service Record Books and Officer Qualification Records for reviewing the
   withholdings and other information for Life Insurance and education benefits.



                        Table 4. SRBs and OQRs Examined*
                    Marine Corps Base           SRBs and OQRs
                    Quantico                    QUALIFICATION
                                                191 (Random Sample)
                    Quantico                    123 (Subpopulation)*
                    Camp LeJeune                226 (Random Sample)
                    Camp LeJeune                 55 (Subpopulation)*
                    Camp Pendleton              293 (Subpopulation)*
                                 Total          888
                 * Results from the subpopulation cannot be statistically projected.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of MCTFS, the database that processes payroll data, although
   we did rely on data produced by that system to conduct the audit. We determined
   data reliability by comparing the data provided to us from MCTFS to source



                                          20
documents in the Marines’ Service Record Books and Officer Qualification
Records. Not evaluating the controls did not affect the results of the audit.

Use of Technical Assistance. The DoD OIG Quantitative Methods Division and
the Data Mining Division assisted the audit.

The Quantitative Methods Division provided a random sample of the Marine
records at Quantico Marine Corps Base. The Quantitative Methods Division also
advised us that the incidence rate for the BAH requests was too low to be efficient
for auditing a random sample with statistical projection and recommended that we
focus our audit on the hard copy files with BAH.

The Data Mining Division trained our team and provided us with software to
compare data and sort information. We used the software to compare BAH zip
codes against the Marines’ Permanent Duty Station zip codes to determine the
subpopulations for review.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    21
Appendix B. Prior Coverage
       During the last 5 years, the Government Accountability Office (GAO), the Naval
       Audit Service, and Air Force Audit Agency issued seven reports discussing
       military payroll or BAH. Unrestricted GAO reports can be accessed over the
       Internet at http://www.gao.gov. Unrestricted NAS reports can be accessed at
       http://www.hq.navy.mil/navalaudit/.


GAO
       GAO-04-413T, “Army National Guard Personnel Mobilized to Active Duty
       Experienced Significant Pay Problems,” January 2004


Navy
       N2005-0021, “Termination of BAH for Personnel Residing in Navy Family
       Housing at Pacific Activities,” January 6, 2005

       N2004-0076, “Termination of BAH for Personnel Residing in Navy Housing at
       Selected Activities in Washington State and California,” September 7, 2004

       N2004-0060, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing at Selected District of Columbia and Maryland Activities,”
       June 17, 2004

       N2004-0035, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing in Jacksonville, FL Area,” April, 1, 2004

       N2004-0025, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing in the New London, CT, and Newport, RI Areas,” February 9,
       2004

Air Force
       F2002-0004-B05400, “BAH Procedures,” March 20, 2002




                                         22
Appendix C. Audit Response to Management
Comments Concerning the Report
   In addition to comments on individual recommendations, the Marine Corps also
   provided general comments on the text of the draft report. We have synopsized
   the comments below along with our audit response. The complete text of those
   comments is in the Management Comments section of this report.

   Movement of Household Goods. The Marine Corps took exception to our
   statement on page 4 of our report that PAAN29-02 does not authorize the
   movement of household goods if the Marine is assigned to a permanent duty
   station with a lower BAH rate. Instead, the Marine Corps stated that the
   authorization rate is not based on a duty station’s BAH rate, but rather it is based
   on proximity to the permanent duty station.
   Audit Response. We stand by our statement. The PAAN29-02 states, “The
   fundamental criterion that must be met for a member to be authorized BAH at the
   old (higher) PDS is that the orders must be low/no cost (i.e., movement of
   household goods at government expense is not authorized).”

   Duplicate Records. The Marine Corps stated that 31 duplicate records fell under
   more than one category, contrary to the footnote under Table 2, page 7 of the
   report. The dollar amounts, however, are not duplicates. The Marine Corps
   recommended that the footnote read, “These total dollar amounts do not duplicate
   those in Table 1.”

   Audit Response. We changed this footnote in the final report.

   Amount of Overpayment. The Marine Corps disagreed with the $800,000
   potential overpayment identified by the auditors. After the auditors completed
   their audit field work, the MMIA conducted additional examinations of the
   auditor findings and determined the potential overpayment was $445,260, or
   $354,740 less than the total identified by the auditors. The Marine Corps stated
   “some of the discrepancies in the audit are due to the resubmission of waiver
   requests and the implementation of MARADMIN 239/05.” The Marine Corps
   also notes that out of the 86 records missing waivers in the audit, 35 had approval
   letters and 10 actually had disapproval letters. The Marine Corps noted that out
   of the 41 records not available for review, 16 had approval letters and 9 actually
   had disapproval letters issued.

   Audit Response. The auditors conducted their audit field work from
   August 2004 through August 2005 and based the audit findings on documentation
   and data provided during that time by the Marine Corps. The auditors could work
   only with the documentation and information made available to them. Even if 51
   (35 missing records plus 16 not available for audit review) waiver requests were
   later submitted to the Marine Corps for the higher BAH rate after audit, these
   items in the audit subpopulation would still be considered errors because of the
   lack of internal controls to prevent payment of the higher BAH rate. As stated in
   our report, the data mining technique for selection of records for audit was the


                                        23
receipt of BAH in excess of the zip code of the permanent duty station. Thus, the
19 (10 missing records plus 9 not available for audit review) records cited by the
Marine Corps in the comments as having disapproval letters are considered even
more serious than the other items noted in the report. We appreciate that the
MMIA has conducted additional work in this area. MMIA did not provide us
details; therefore we cannot adjust our original numbers.

Criteria for Higher Basic Allowance for Housing. The Marine Corps disagreed
that Marines assigned by Squadron Special Order to an alert site in an area with a
higher BAH rate should receive the BAH rate of their permanent duty station.
The Marine Corps stated that the DoD Financial Management Regulation states
that BAH is based on a permanent duty station or where a Marine spends a
preponderance of their duty time. The Marine Corps added that Anacostia PDS
fits this category and the Marines are entitled to the higher BAH while assigned
there. The Marine Corps also stated that MMIA is working with Manpower
Management to ensure proper documentation for the higher BAH rate.

Audit Response. Based on the comments provided we re-examined the DoD
Financial Management Regulation but could not find the statement presented.
We found no justification for the Marines assigned to the alert site in Anacostia
receiving the higher BAH rate.




                                    24
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Inspector General of the Marine Corps

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Kansas City

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          25
United States Marine Corps Comments




                     27
Final Report
 Reference




Revised,
Redirected,
and
Renumbered
as A.6.
Revised
Page 7




               28
29
Final Report
 Reference




Revised,
Renumbered
as
Recommen-
dation A.1.




Renumbered
as
Recommen-
dation A.2.




Renumbered
as
Recommen-
dation A.3.




               30
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation A.4.




31
32
Defense Finance and Accounting Service
Comments




                      33
Final Report
 Reference




Revised,
Redirected,
and
Renumbered
as
Recommen-
dation A.5.




Revised,
Redirected,
and
Renumbered
as
Recommen-
dation A.6.




               34
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Paul J. Granetto
Patricia Marsh
Douglas P. Neville
Joseph A. Powell
Lusk Penn
Donovan Quimby
Mark Heim
Lisa Vega
Daniel Carlquist
